Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 MEDICARE HOSPICE CARE: A

COMPARISON OF BENEFICIARIES 

 IN NURSING FACILITIES AND 

  BENEFICIARIES IN OTHER 

         SETTINGS





                    Daniel R. Levinson

                     Inspector General 


                      December 2007

                     OEI-02-06-00220

               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
  Δ          E X E C U T I V E                              S U M M A R Y


                                  OBJECTIVE
                                  1.	 To determine the percentage of Medicare hospice beneficiaries who
                                      reside in nursing facilities.

                                  2.	 To describe the characteristics of Medicare hospice beneficiaries who
                                      reside in nursing facilities and compare these characteristics to
                                      those of hospice beneficiaries who reside in other settings.


                                  BACKGROUND
                                  The Medicare hospice benefit allows a beneficiary with a terminal
                                  illness to forgo curative treatment for the illness and instead receive
                                  palliative care. The number of beneficiaries receiving hospice care has
                                  increased significantly in recent years and some studies suggest that
                                  the use of hospice care is growing most rapidly in nursing facilities.
                                  However, little is known about the characteristics of hospice
                                  beneficiaries who reside in nursing facilities and the way in which this
                                  population compares to hospice beneficiaries in other settings.

                                  This study describes the characteristics of Medicare hospice
                                  beneficiaries who resided in nursing facilities in 2005 and compares this
                                  population to Medicare hospice beneficiaries who resided in other
                                  settings. We used the Medicare Part A hospice claims from the
                                  National Claims History file to identify beneficiaries who received
                                  hospice care in 2005 and to obtain demographic information. We used
                                  the Minimum Data Set to identify the hospice beneficiaries who resided
                                  in nursing facilities. We also used the Online Survey and Certification
                                  Reporting System to identify hospice agencies that were for-profit and
                                  those that were not-for-profit.

                                  This study is the first in a two-part series. The second study will
                                  determine the nature and extent of hospice services provided to
                                  beneficiaries residing in nursing facilities and assess the
                                  appropriateness of payments for their hospice care.


                                  FINDINGS
                                  Twenty-eight percent of Medicare hospice beneficiaries resided in
                                  nursing facilities in 2005. A total of 871,437 Medicare beneficiaries
                                  received hospice care in 2005. Twenty-eight percent of these
                                  beneficiaries resided in nursing facilities for at least some time while

OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   i
     E X E C U T I V E                          S U       M M A R Y


                                  they received hospice care. Medicare payments for hospice care for
                                  these beneficiaries amounted to $2.55 billion. Seventy-two percent of
                                  hospice beneficiaries resided in other settings. Medicare payments for
                                  hospice care for these beneficiaries totaled $5.37 billion.

                                  Higher percentages of hospice beneficiaries residing in nursing facilities
                                  were older and female compared to their counterparts residing in other
                                  settings. Those in nursing facilities were also more likely to live in the
                                  Midwest. The two groups were similar, however, in terms of race, the
                                  reasons for Medicare eligibility, and their likelihood of living in urban
                                  areas. Of the four levels of hospice care, beneficiaries in both groups
                                  most commonly received routine home care, followed by general
                                  inpatient care, continuous home care, and respite care.
                                  Hospice beneficiaries in nursing facilities were more than twice as
                                  likely as beneficiaries in other settings to have terminal diagnoses
                                  of ill-defined conditions, mental disorders, or Alzheimer’s disease.
                                  The two groups of beneficiaries differed greatly in terms of their
                                  terminal diagnoses. Forty-eight percent of hospice beneficiaries in
                                  nursing facilities had terminal diagnoses of ill-defined conditions,
                                  mental disorders, or Alzheimer’s disease, compared to 23 percent of
                                  hospice beneficiaries in other settings. Ill-defined conditions are
                                  diagnoses that are not easily classified in other diagnosis categories.
                                  Ill-defined conditions include debility, adult failure to thrive, and
                                  senility.

                                  Hospice beneficiaries in nursing facilities were also half as likely to
                                  have terminal diagnoses of cancer as beneficiaries in other settings. In
                                  2005, 20 percent of hospice beneficiaries in nursing facilities had cancer
                                  diagnoses, compared to 41 percent of beneficiaries in other settings.
                                  On average, beneficiaries in nursing facilities spent more time in
                                  hospice care and were associated with higher Medicare
                                  reimbursements than beneficiaries in other settings. Hospice
                                  beneficiaries in nursing facilities spent an average of 80 days in hospice
                                  care in 2005. Beneficiaries in other settings spent an average of 62 days
                                  in hospice care. For 14 of the 15 diagnosis categories, beneficiaries in
                                  nursing facilities had longer average lengths of stay in hospice care than
                                  beneficiaries in other settings.

                                  Additionally, average Medicare reimbursement for hospice care for
                                  beneficiaries in nursing facilities was 25 percent higher than for
                                  beneficiaries in other settings. On average, Medicare paid $10,631 per
                                  beneficiary for hospice care for beneficiaries in nursing facilities in 2005,

OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   ii
     E X E C U T I V E                          S U       M M A R Y


                                  compared with the $8,500 per beneficiary paid for beneficiaries in other
                                  settings. Longer stays in hospice care by beneficiaries who resided in
                                  nursing facilities contributed to their higher average reimbursement.


                                  CONCLUSION
                                  In our comparison of Medicare hospice beneficiaries who reside in
                                  nursing facilities to hospice beneficiaries who reside in other settings,
                                  we found that beneficiaries in nursing facilities tended to be older and
                                  more likely to have ill-defined conditions. Also, their time in care was
                                  longer and more costly. A second study will assess the appropriateness
                                  of payments for hospice care for beneficiaries in nursing facilities. As
                                  the country’s population ages, hospice use in general and hospice care
                                  by nursing facility residents is expected to grow. The information
                                  presented in this study and the follow-up study may help the Centers
                                  for Medicare & Medicaid Services (CMS) and other decisionmakers
                                  better understand the Medicare hospice care population.


                                  AGENCY COMMENTS
                                  CMS states that this report provides a helpful general description of the
                                  current utilization patterns. CMS notes the following limitations of the
                                  study: the cost per beneficiary includes only hospice payments and not
                                  other costs of care through Parts A, B, and D; the study does not
                                  reference the number of hospitalizations; the study does not discuss the
                                  number of hospice revocations or discharges that have occurred; and the
                                  study reflects only the length of stay and costs in 2005.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Twenty-eight percent were in nursing facilities. . . . . . . . . . . . . . . . 8


                   Those in facilities were more likely to have certain diagnoses . . . 11 


                   Beneficiaries in nursing facilities spent more time in hospice 

                   care. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   Appendix A: Demographic Characteristics of Medicare Hospice 

                               Beneficiaries Who Resided in Nursing Facilities 

                               and Other Settings, 2005 . . . . . . . . . . . . . . . . . . . . . 17 


                   Appendix B: Diagnosis Categories for Hospice Beneficiaries,                                  .

                               2005. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                   Appendix C: Length of Stay in Hospice Care, 2005 . . . . . . . . . . . 19 


                   Appendix D: Average Number of Days Spent in Hospice Care

                               by Diagnosis Category, 2005. . . . . . . . . . . . . . . . . . 20 


                   Appendix E: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . 21 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

  Δ          I N T R O D U C T I O N


                                  OBJECTIVES
                                  1. 	 To determine the percentage of Medicare hospice beneficiaries who
                                       reside in nursing facilities.

                                  2. 	 To describe the characteristics of Medicare hospice beneficiaries who
                                       reside in nursing facilities and compare these characteristics to
                                       those of hospice beneficiaries who reside in other settings.


                                  BACKGROUND
                                  The Medicare hospice benefit allows a beneficiary with a terminal
                                  illness to forgo curative treatment for the illness and instead receive
                                  palliative care, which is the relief of pain and other uncomfortable
                                  symptoms. The number of beneficiaries receiving hospice care has
                                  increased significantly in recent years. In fiscal year (FY) 2001,
                                  580,000 Medicare beneficiaries received hospice care. In FY 2006, this
                                  number increased by 61 percent to nearly 934,000 beneficiaries. At the
                                  same time, Medicare spending on hospice care increased from
                                  $3.6 billion in 2001 to $9.2 billion in 2006. 1
                                  Some studies suggest that the use of hospice care is growing most
                                  rapidly in nursing facilities.2 However, little is known about the
                                  characteristics of hospice beneficiaries in nursing facilities and the way
                                  in which this population compares to hospice beneficiaries in other
                                  settings. Recent studies also note the need for comprehensive data
                                  about Medicare hospice beneficiaries and the services they receive.3


                                     1 Centers for Medicare & Medicaid Services, “Medicare Hospice Expenditures and Units
                                  of Care” (November 9, 2006). Available online at
                                  http://www.cms.hhs.gov/ProspMedicareFeeSvcPmtGen/downloads/FY05update_hospice_exp
                                  enditures_and_units_of_care.pdf. Accessed on May 22, 2007; Office of Inspector General
                                  analysis of Medicare Health Care Information System data from the Centers for Medicare
                                  & Medicaid Services. Accessed on July 17, 2007.
                                     2 Office of the Assistant Secretary for Planning and Evaluation, “Use of Medicare’s
                                  Hospice Benefit by Nursing Facility Residents” (March 2000) p. 2; Medicare Payment
                                  Advisory Commission, “Medicare Beneficiaries’ Access to Hospice” (May 2002) p. 5.
                                  Available online at
                                  http://www.medpac.gov/publications/congressional_reports/may2002_HospiceAccess.pdf.
                                  Accessed on May 11, 2006.
                                     3 Medicare Payment Advisory Commission, “Medicare Beneficiaries’ Access to Hospice”
                                  (May 2002) p. 8; Government Accountability Office, “Medicare Hospice Care: Modifications
                                  to Payment Methodology May Be Warranted” (GAO-05-42) (2004) p. 20; Office of the
                                  Assistant Secretary for Planning and Evaluation, “Synthesis and Analysis of Medicare’s
                                  Hospice Benefit” (March 2000) p. 4.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   1
     I N T R O D                U C T        I O N


                                  This study determines the percentage of Medicare beneficiaries who
                                  received hospice care and resided in nursing facilities in 2005. It also
                                  describes the characteristics of these beneficiaries and compares them
                                  to those of Medicare beneficiaries who received hospice care and resided
                                  in other settings, such as private homes. This study is the first in a
                                  two-part series. The second study will determine the nature and extent
                                  of hospice services provided to beneficiaries residing in nursing facilities
                                  and assess the appropriateness of payments for their hospice care.
                                  The Medicare Hospice Benefit
                                  The Tax Equity and Fiscal Responsibility Act of 1982 created the
                                  Medicare hospice benefit for eligible beneficiaries under Medicare
                                  Part A.4 The goal of hospice care is to assist terminally ill beneficiaries
                                  to continue life with minimal disruption while supporting families
                                  throughout the process. The care may be provided to individuals and
                                  their families in the home or other places of residence, such as a skilled
                                  or other nursing facility. The care provided to families includes
                                  counseling for caregivers, training to provide care for the individual,
                                  and bereavement counseling.

                                  To be eligible for Medicare hospice care, a beneficiary must be entitled
                                  to Part A of Medicare and be certified as having a terminal prognosis
                                  with a life expectancy of 6 months or less, should the disease run its
                                  normal course. Certification is based on the attending physician’s
                                  and/or hospice medical director’s clinical judgment regarding the normal
                                  course of the disease.5 Upon a beneficiary’s election of hospice care, the
                                  hospice provider assumes the responsibility for medical care related to
                                  the beneficiary’s terminal illness and related conditions. This care is
                                  palliative, rather than curative. The beneficiary waives Medicare
                                  coverage for services related to the treatment of the terminal condition
                                  or a related condition6 but retains Medicare coverage for services to
                                  treat conditions unrelated to the terminal illness.

                                  Beneficiaries are entitled to receive hospice care for two 90-day periods
                                  and unlimited7 60-day election periods.8 The periods need not be

                                     4 Pub. L. No. 97-248, section 122, 96 Stat. 324, 356 (codified at 42 U.S.C. § 1395x(dd)). 

                                     5 42 CFR §§ 418.20 and 418.22. 

                                     6 42 CFR § 418.24. 

                                     7 Before 1990, hospice beneficiaries who were in hospice care for more than 210 days and 

                                  still required such care were provided care by the hospice without charge to Medicare or the
                                  beneficiary.
                                     8 42 CFR § 418.21.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   2
     I N T R O D                U C T        I O N


                                  consecutive. At the start of each period of care, a physician must certify
                                  that the beneficiary is terminally ill and has a life expectancy of
                                  6 months or less. The attending physician and the hospice medical
                                  director are required to make the initial certification. The hospice
                                  medical director is required to make each subsequent recertification.9
                                  Beneficiaries may revoke their election of hospice care and return to
                                  standard Medicare coverage at any time. 10
                                  Medicare coverage requirements for hospice services. Hospice care is provided
                                  by Medicare-certified hospice agencies. According to regulations, hospice
                                  services must meet the following requirements to be covered by Medicare:
                                  the services must be reasonable and necessary for the palliation or
                                  management of the terminal illness as well as related conditions; the
                                  individual must elect hospice care; a plan of care must be established by a
                                  physician and an interdisciplinary group comprising a physician, a
                                  registered nurse, social worker, and a pastoral or other counselor; the
                                  services must be consistent with the plan of care; and a certification that
                                  the individual is terminally ill must be completed by the medical director
                                  of the hospice and the individual’s attending physician.11
                                  Hospice services. As stated in Medicare statutes and regulations, the
                                  following are covered hospice services:

                                       •	    nursing care provided by, or under the supervision of, a
                                             registered nurse;

                                       •	    physical or occupational therapy or speech-language pathology
                                             services;

                                       •	    medical social services under the direction of a physician;

                                       •	    home health aide and homemaker services;

                                       •	    medical supplies (including drugs and biologicals) and the use of
                                             medical appliances;

                                       •	    physicians’ services;

                                       •	    short-term inpatient care (including both respite care and
                                             procedures necessary for pain control and acute and chronic
                                             symptom management);

                                     9 42 CFR § 418.22. 

                                     10 42 CFR § 418.28. 

                                     11 42 CFR § 418.200; 42 CFR § 418.24; 42 CFR § 418.58; 42 CFR § 418.68; and 

                                  42 CFR § 418.22.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   3
     I N T R O D 
U C T                      I O N


                                       •	    counseling (including dietary counseling) with respect to care of
                                             the terminally ill individual and adjustment to the individual’s
                                             death;12 and
                                       •	    any other service that is specified in the plan of care as
                                             reasonable and necessary for the palliation and management of
                                             the terminal illness and related conditions and for which
                                             payment may otherwise be made under Medicare.13
                                  Payment rates. The Medicare hospice benefit has four levels of care and
                                  each level has an all-inclusive, prospectively determined daily rate. The
                                  rate is paid to the hospice for each day that a beneficiary is in hospice care,
                                  regardless of the amount of services furnished. The Centers for Medicare
                                  & Medicaid Services (CMS) publishes general hospice payment rates
                                  annually to be used for each level of care. The rates are adjusted based on
                                  the beneficiary’s geographic location. The levels of care and the FY 2005
                                  Medicare unadjusted daily rate for each are as follows:
                                       •	 Routine Home Care ($121.98): The routine home care rate is
                                          paid to the hospice for each day the beneficiary is under the
                                          care of the hospice and not receiving one of the other
                                          categories of care. Routine home care includes, but is not
                                          limited to, nursing and home health aide services. Routine
                                          home care can be provided in the home or other places of
                                          residence, such as a nursing facility.
                                       •	 Continuous Home Care ($711.92): Continuous home care is
                                          allowed only during periods of crisis in which a beneficiary
                                          requires continuous care to achieve palliation or management
                                          of acute medical symptoms. It is covered only as necessary to
                                          maintain the terminally ill beneficiary at home. The care
                                          must be predominantly nursing care. Continuous home care
                                          can be provided in the home or other places of residence, such
                                          as a nursing facility. The continuous home care rate is divided
                                          by 24 hours to determine an hourly rate. A minimum of eight
                                          hours must be provided.
                                       •	 Respite Care ($126.18): Respite care is short-term inpatient
                                          care provided to the beneficiary when necessary to relieve the
                                          beneficiary’s caregiver(s). Respite care may be provided only


                                     12 42 U.S.C. § 1395x(dd)(1)(H); 42 CFR § 418.202.
                                     13 42 CFR § 418.202.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   4
     I N T R O D                U C T        I O N


                                             on an occasional basis and is not reimbursed for more than
                                             5 consecutive days. Inpatient care may be provided in a
                                             Medicare-certified or Medicaid-certified hospice inpatient
                                             facility, hospital, or skilled nursing facility.
                                       •	 General Inpatient Care ($542.61): General inpatient care is
                                          inpatient care for pain control and symptom management that
                                          cannot feasibly be provided in other settings. Inpatient care
                                          may be provided in a Medicare-certified or Medicaid-certified
                                          hospice inpatient facility, hospital, or skilled nursing facility.
                                  Hospice care in nursing facilities. When a beneficiary resides in a nursing
                                  facility, the hospice agency is responsible for providing all of the core
                                  hospice services (nursing, physician, medical social, and counseling) to the
                                  beneficiary.14 The nursing facility provides room and board care and care
                                  unrelated to the terminal illness. Medicare reimburses the hospice
                                  provider according to the level of care provided and the beneficiary or a
                                  third party payer pays the nursing facility for room and board costs.15


                                  METHODOLOGY
                                  Scope
                                  This study describes the characteristics of Medicare hospice
                                  beneficiaries who resided in nursing facilities in 2005 and compares this
                                  population to Medicare hospice beneficiaries who resided in other
                                  settings. Our analysis includes the universe of Medicare hospice
                                  beneficiaries who resided in nursing facilities and the universe of
                                  Medicare hospice beneficiaries who resided in other settings. We define
                                  Medicare hospice beneficiaries in nursing facilities as all beneficiaries
                                  who resided in nursing facilities for at least 1 day while in hospice care
                                  during 2005. We used a number of different data sources to identify
                                  this population and the comparison group because no single data source
                                  identifies the place of service for hospice care. We used 2005 claims
                                  data because 2005 was the most recent full year of complete claims data
                                  available at the time of our study.




                                     14 The hospice agency can contract with the nursing facility to provide noncore services
                                  as well as caregiver services such as meals and laundry.
                                     15 “Medicare Benefit Policy Manual,” chapter 9, section 20.3 (December 3, 2004).




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   5
     I N T R O D 
U C T                      I O N


                                  Beneficiaries Who Received Hospice Care in 2005
                                  We identified all beneficiaries who received hospice care in 2005 using
                                  the Medicare Part A hospice claims from the National Claims History
                                  file for 2005. We also included claims from the 2006 file that covered
                                  days of service that occurred in 2005. Hospice agencies typically submit
                                  claims that cover a 1-month period. Therefore, some claims from the
                                  2006 file included days from 2005. Similarly, some claims from the
                                  2005 file included days from 2004. We determined Medicare
                                  reimbursement for the 2005 portion of these claims by multiplying the
                                  percentage of days that the beneficiary received hospice care in 2005 by
                                  the claim reimbursement amount.
                                  We obtained demographic information about the beneficiaries from the 

                                  claims data. We also matched the claims data to the Medicare 

                                  Enrollment Database by Health Insurance Claim Number to identify 

                                  the Social Security number for each beneficiary. We used the Social 

                                  Security numbers to link this file to other databases. 

                                  Beneficiaries Who Received Hospice Care and Resided in Nursing Facilities
                                  We identified the beneficiaries who received hospice care and resided in
                                  nursing facilities using the Minimum Data Set (MDS) from 2004, 2005,
                                  and 2006. The MDS includes assessments on all residents in Medicare-
                                  certified or Medicaid-certified long term care facilities, including skilled
                                  nursing facilities. For the purpose of this report, we refer to all such
                                  facilities as nursing facilities. We considered a beneficiary a resident of
                                  a nursing facility if the beneficiary had an MDS. Nursing facilities
                                  complete these assessments at scheduled intervals during a resident’s
                                  time in a facility and when a resident’s health status changes.

                                  We used information from the MDS to create a record for each
                                  beneficiary that included the dates he or she resided in a nursing
                                  facility. We then matched these records, by Social Security number, to
                                  the claims data to identify the beneficiaries who received hospice care
                                  and resided in nursing facilities in 2005. These beneficiaries could have
                                  been in a nursing facility before electing hospice care or entered a
                                  facility after electing hospice care.
                                  Hospice Agencies
                                  We identified the hospice agencies that provided care to beneficiaries in
                                  2005 by using the Online Survey and Certification Reporting System
                                  (OSCAR). We matched the provider numbers in the claims file with the
                                  OSCAR data. We identified hospice agencies that were for-profit and



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   6
     I N T R O D                U C T        I O N


                                  those that were not-for-profit using a variable that indicates the type of
                                  provider ownership.
                                  Analysis of Beneficiary Characteristics
                                  We analyzed the files described above to determine the characteristics
                                  of hospice beneficiaries who resided in nursing facilities in 2005 and
                                  those who resided in other settings. We determined the total number of
                                  beneficiaries in each of these groups, their demographic characteristics,
                                  their diagnosis categories,16 and reimbursements for hospice care.
                                  Standards
                                  Our review was conducted in accordance with the “Quality Standards
                                  for Inspections” issued by the President’s Council on Integrity and
                                  Efficiency and the Executive Council on Integrity and Efficiency.




                                     16 The diagnosis categories are from the International Classification of Diseases, Ninth
                                  Revision, Clinical Modification (ICD-9-CM), which is the official system of assigning codes
                                  to diagnoses and procedures.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   7
  Δ          F I N D I N G S

                        Twenty-eight percent of Medicare                   A total of 871,437 Medicare
                         hospice beneficiaries resided in                  beneficiaries received hospice care
                                nursing facilities in 2005                 in 2005. Twenty-eight percent of
                                                                           these beneficiaries resided in
                                  nursing facilities for at least some time while they received hospice care.
                                  As Figure 1 shows, 22 percent of beneficiaries resided in nursing
                                  facilities for all of their time in hospice care in 2005, and 6 percent
                                  resided in nursing facilities for part of their time in hospice care. These
                                  beneficiaries started hospice care before entering facilities and/or left
                                  the facilities for some time during their hospice care in 2005. The
                                  remaining 72 percent of hospice beneficiaries resided in other settings.
                                  According to our analysis of hospice claims, Medicare paid a total of
                                  $7.92 billion for hospice care for all Medicare beneficiaries in 2005.
                                  Thirty-two percent of these Medicare payments were for beneficiaries
                                  who resided in nursing facilities, amounting to $2.55 billion. The
                                  remaining $5.37 billion was for beneficiaries who resided in other
                                  settings.


                                                                              Hospice beneficiaries 

              FIGURE 1:                                                        residing in nursing

    Medicare Hospice                                                           facilities for part of

                                                                              their time in hospice 

  Beneficiaries, 2005
                                                                                        care

                                                                                        6%



                                               Hospice beneficiaries
                                                 residing in nursing
                                              facilities for all of their
                                                time in hospice care
                                                         22%




                                                                                                                    Hospice beneficiaries 

                                                                                                                  residing in other settings

                                                                                                                             72%





                                  Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS           8
F   I N D I N G 
S



                                  Age and Gender. Higher percentages of hospice beneficiaries residing in
                                  nursing facilities were older and female, compared to their counterparts
                                  residing in other settings. In 2005, the average age of hospice
                                  beneficiaries residing in nursing facilities was 84 years, while the
                                  average age for hospice beneficiaries residing in other settings was
                                  81 years. Fifty-two percent of hospice beneficiaries in nursing facilities
                                  were 85 years or older, compared to 36 percent of beneficiaries in other
                                  settings. Females represented 68 percent of hospice beneficiaries in
                                  nursing facilities, as opposed to 56 percent of hospice beneficiaries in
                                  other settings. See Appendix A for a table of the demographic
                                  characteristics of the two groups.
                                  Other Demographics. Hospice beneficiaries in nursing facilities were
                                  more likely than beneficiaries in other settings to live in the Midwest
                                  region of the United States and less likely to live in the South. Thirty
                                  percent of hospice beneficiaries in nursing facilities lived in the
                                  Midwest, compared to 21 percent of hospice beneficiaries in other
                                  settings. Thirty-four percent of the beneficiaries in nursing facilities
                                  lived in the South, as opposed to 40 percent of beneficiaries in other
                                  settings. The two groups were similar, however, in terms of race, the
                                  reasons for Medicare eligibility, and their likelihood of living in urban
                                  areas.

                                      Levels of Hospice Care. Routine home care was the most common level
                                      of hospice care received by beneficiaries in both groups. As Table 1
                                      shows, 94 percent of hospice beneficiaries in nursing facilities received
                                      routine home care at some time during the year, compared to 85 percent
                                      of beneficiaries in other settings. General inpatient care was the next
                                      most common level of care. Fifteen percent of hospice beneficiaries in
                                                                                             nursing facilities received
Table 1: Levels of Hospice Care, 2005
                                                                                             general inpatient care at
                                Beneficiaries in Nursing            Beneficiaries   in Other some time during the year, in
Level of Hospice Care
                                                  Facilities                        Settings
                                                                                             contrast to 24 percent of
Routine Home Care                                       94%                             85%  beneficiaries in other
General Inpatient Care                                  15%                             24%  settings. Seven percent of
Continuous Home Care                                     7%                               6% beneficiaries in nursing
Respite Care                                             3%                               2% facilities and 6 percent of
Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.          beneficiaries in other settings
Note: Levels of care are not mutually exclusive.                                             had continuous home care.
                                                                                             Respite care was the least
                                      common, received by 3 percent of those in nursing facilities and 

                                      2 percent of those in other settings. 


OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   9
     F   I N D I N G               S        





                                  Hospice Agencies. Both for-profit and not-for-profit hospice agencies
                                  provide care for beneficiaries who reside in nursing facilities. In 2005,
                                  for-profit hospice agencies had a higher percentage of their Medicare
                                  beneficiaries residing in nursing facilities than not-for-profit hospice
                                  agencies. For-profit hospice agencies had 30 percent of their Medicare
                                  beneficiaries residing in nursing facilities. In contrast, not-for-profit
                                  hospice agencies had 23 percent of their Medicare beneficiaries residing
                                  in nursing facilities. See Table 2.


                                    Table 2: Medicare Hospice Beneficiaries by Type of Hospice Agency,
                                    2005
                                                                                                       For-Profit         Not-for-Profit


                                    Beneficiaries in Nursing Facilities                                       30%                  23%

                                    Beneficiaries in Other Settings                                           70%                  77%

                                    Total                                                                   100%                  100%

                                    Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.


                                  Overall, the percentage of hospice agencies that are for-profit continues
                                  to grow. In 1992, 13 percent of hospice agencies were for-profit and this
                                  percentage grew to 28 percent by 2001.17 In 2005, 45 percent of the
                                  2,884 hospice agencies that provided care to the Medicare population
                                  were for-profit.




                                     17 Government Accountability Office, “Medicare Hospice Care: Modifications to Payment
                                  Methodology May Be Warranted” (GAO-05-42) (2004) p. 9.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS    10
     F   I N      D    I   N G     S



      Hospice beneficiaries in nursing facilities were                       A beneficiary must be diagnosed
                                                                             with a terminal illness with a
         more than twice as likely as beneficiaries in
                                                                             life expectancy of 6 months or
      other settings to have terminal diagnoses of ill-
                                                                             less to be eligible for Medicare
             defined conditions, mental disorders, or                        hospice care. In 2005,
                                 Alzheimer’s disease                         beneficiaries in nursing facilities
                                                                             were more than twice as likely
                                  as beneficiaries in other settings to have diagnoses in certain categories.
                                  These categories are: (1) symptoms, signs, and ill-defined conditions18
                                  (referred to as “ill-defined conditions”); (2) mental disorders; and
                                  (3) Alzheimer’s disease.19
                                  Forty-eight percent of hospice beneficiaries in nursing facilities had
                                  terminal diagnoses in one of these categories, compared to 23 percent of
                                  hospice beneficiaries in other settings. Specifically:

                                       •	    Twenty percent of hospice beneficiaries in nursing facilities had
                                             terminal diagnoses of ill-defined conditions, as opposed to
                                             10 percent of beneficiaries in other settings. See Figure 2.
                                             Within this category, almost all of the beneficiaries, regardless of
                                             where they resided, had diagnoses of debility, adult failure to
                                             thrive, or senility without mention of psychosis.

                                       •	    Fifteen percent of hospice beneficiaries in nursing facilities had
                                             terminal diagnoses of mental disorders, compared to 6 percent of
                                             hospice beneficiaries in other settings. The most common
                                             mental disorders for these beneficiaries were “dementia in
                                             conditions classified elsewhere without behavior disturbances,”
                                             “other specified organic brain syndromes,” and “atherosclerotic
                                             dementia, uncomplicated.”
                                       •	    Thirteen percent of hospice beneficiaries in nursing facilities had
                                             diagnoses of Alzheimer’s disease, as opposed to 7 percent of
                                             beneficiaries in other settings.




                                     18 This category includes diagnoses that are not easily classified in other ICD-9-CM
                                  categories such as debility, adult failure to thrive, and senility.
                                     19 Alzheimer’s disease is listed under diseases of the nervous system and sense organ in
                                  the ICD-9-CM.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   11
     F    I N D I N G                                          S        




            FIGURE 2:                                          45%
                                                                                                        41%
              Common
                                                               40%
         Diagnoses for
             Medicare                                          35%
              Hospice

                                 Percentage of Beneficiaries
         Beneficiaries,                                        30%
                   2005
                                                               25%
                                                                            20%                  20%                    20% 20%
                                                               20%
                                                                                                                                                 15%
                                                               15%                                                                                                     13%
                                                                                  10%
                                                               10%
                                                                                                                                                                             7%
                                                                                                                                                        6%
                                                                   5%

                                                                   0%
                                                                            Ill-defined     Neoplasms (Cancer) Circulatory Diseases           M ental Disorders   Alzheimer's Disease
                                                                            Conditions
                                                                                                                      Diagnosis Category
                                                                                Beneficiaries in Nursing Facilities                        Beneficiaries in Other Settings

                               Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




                                            Another major difference between the two groups of beneficiaries was
                                            the frequency of cancer. When the hospice benefit was introduced,
                                            cancer was by far the most prevalent terminal diagnosis among hospice
                                            beneficiaries. Although cancer is still prevalent, cancer diagnoses for
                                            hospice beneficiaries are now less common, particularly among
                                            beneficiaries in nursing facilities. In 2005, hospice beneficiaries in
                                            nursing facilities were half as likely to have terminal diagnoses of
                                            cancer as beneficiaries in other settings. Twenty percent of hospice
                                            beneficiaries in nursing facilities had cancer diagnoses, compared to
                                            41 percent of beneficiaries in other settings.

                                             In total, Medicare hospice beneficiaries had terminal diagnoses in
                                             15 different diagnosis categories in 2005. 20 In addition to those
                                             discussed above, other common diagnosis categories were diseases of the
                                             circulatory system (referred to as circulatory diseases) and diseases of
                                             the respiratory system. See Appendix B for a complete list of diagnosis
                                             categories and the percentage of beneficiaries with diagnoses within
                                             each category.


                                                               20 There are two additional diagnosis categories that we did not include in our analysis
                                             because together they accounted for 0.001 percent of the hospice population.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS                                        12
   F   I N D I N G                S       



                                                                           Hospice beneficiaries in nursing
On average, beneficiaries in nursing facilities spent
                                                                           facilities spent an average of
    more time in hospice care and were associated                          80 days in hospice care in 2005,
        with higher Medicare reimbursements than                           compared to an average of 62 days
                     beneficiaries in other settings                       for beneficiaries in other settings.
                                                                           Beneficiaries in nursing facilities
                                   were less likely than other beneficiaries to spend between 1 and 30 days
                                   in hospice care. Forty-nine percent of the beneficiaries in nursing
                                   facilities spent 30 days or fewer in hospice care in 2005, while
                                   58 percent of beneficiaries in other settings spent that time in hospice
                                   care.
                                   Beneficiaries in nursing facilities were more likely than other
                                   beneficiaries to spend more than 180 days in hospice care. Sixteen
                                   percent of beneficiaries in nursing facilities spent more than 180 days in
                                   hospice care in 2005, compared with 11 percent of beneficiaries in other
                                   settings. See Appendix C for more details on the lengths of stay for the
                                   two groups of beneficiaries.

                                   For 14 of the 15 diagnosis categories, beneficiaries in nursing facilities
                                   had longer average lengths of stay in hospice care than beneficiaries in
                                   other settings. For example, beneficiaries in nursing facilities with
                                   terminal diagnoses of ill-defined conditions spent an average of 84 days
                                   in hospice care in 2005, whereas those in other settings spent 75 days in
                                   hospice care. Beneficiaries in nursing facilities who had terminal
                                   diagnoses of cancer spent an average of 64 days in hospice care in 2005,
                                   while beneficiaries in other settings spent 46 days. See Figure 3 for the
                                   average days in hospice care for the most common diagnosis categories.
                                   See Appendix D for the average days for all diagnosis categories.
                                   In both groups, beneficiaries with terminal diagnoses of Alzheimer’s
                                   disease, mental disorders, or ill-defined conditions had the longest
                                   average lengths of stay in hospice care in 2005.21 As noted earlier, these
                                   diagnosis categories were more common for beneficiaries who resided in
                                   nursing facilities than for beneficiaries who resided in other settings.
                                   At the same time, cancer diagnoses were associated with shorter
                                   lengths of stay on average. These diagnoses were more common for
                                   beneficiaries who resided in other settings.



                                      21 Diseases of the musculoskeletal system and connective tissue are also associated with
                                   long lengths of stay but represented 0.1 percent of the hospice population in 2005.



 OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   13
F    I N D I N G              S                                    




         FIGURE 3:
           Average                                           120
        Number of
                                                                           102   100
            Days in                                          100
                                                                                                 92
     Hospice Care                                                                                      87
                                                                                                                         84
      by Diagnosis
                              Average Days in Hospice Care
    Category, 2005                                            80                                                              75            75
                                                                                                                                                  71
                                                                                                                                                                  64
                                                              60
                                                                                                                                                                            46

                                                              40



                                                              20



                                                               0
                                                                       Alzheimer's Disease   M ental Disorders          Ill-defined    Circulatory Diseases Neoplasms (Cancer)
                                                                                                                        Conditions
                                                                                                                    Diagnosis Category
                                                                              Beneficiaires in Nursing Facilities                       Beneficiaries in Other Setttings


                            Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




                                                             Average Medicare reimbursement for hospice care for beneficiaries in
                                                             nursing facilities was 25 percent higher than for beneficiaries in other
                                                             settings
                                                             On average, Medicare paid $10,631 per beneficiary for hospice care for
                                                             beneficiaries in nursing facilities in 2005. 22 This amount is 25 percent
                                                             higher than the $8,500 per beneficiary paid for beneficiaries in other
                                                             settings. Longer stays in hospice care by beneficiaries who resided in
                                                             nursing facilities contributed to their higher average reimbursement.

                                                             Additionally, average Medicare reimbursement was higher for every
                                                             level of hospice care for beneficiaries in nursing facilities, compared to
                                                             reimbursement for beneficiaries in other settings. See Table 3. The
                                                             biggest percentage difference was in general inpatient care. Although
                                                             proportionately fewer beneficiaries in nursing facilities received general
                                                             inpatient care, the average Medicare reimbursement in 2005 for these
                                                             beneficiaries was 33 percent higher than the average reimbursement for
                                                             beneficiaries in other settings.


                                                                22 This amount includes hospice services only. It does not include reimbursement for
                                                             other Medicare Part A services or Medicare Part B services that the beneficiary may have
                                                             received in 2005.



OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS                                       14
      F   I N D I N G                 S        




Table 3: Average Medicare Reimbursement by Level of                                            Specifically, Medicare paid on
Hospice Care, 2005                                                                             average $4,836 for beneficiaries
                                                                                               residing in nursing facilities,
Level of Hospice Care          Beneficiaries in Nursing          Beneficiaries in Other
                                               Facilities                      Settings        compared to $3,634 for
                                                                                               beneficiaries residing in other
Routine Home Care                                  $10,174                            $8,664
                                                                                               settings.
Continuous Home Care                                $2,956                            $2,814

Respite Care                                          $806                             $663

General Inpatient Care                              $4,836                            $3,634

Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220    MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   15
     E X E C U T I V E                          S U       M M A R Y
  Δ          C O N C L U S I O N

                                  In our comparison of Medicare hospice beneficiaries who reside in
                                  nursing facilities to hospice beneficiaries who reside in other settings,
                                  we found that beneficiaries in nursing facilities tended to be older and
                                  more likely to have ill-defined conditions. Also, their time in care was
                                  longer and more costly. A second study will assess the appropriateness
                                  of payments for hospice care for beneficiaries in nursing facilities. As
                                  the country’s population ages, hospice use in general and hospice care
                                  by nursing facility residents is expected to grow. The information
                                  presented in this study and the follow-up study may help CMS and
                                  other decisionmakers better understand the Medicare hospice care
                                  population.


                                  AGENCY COMMENTS
                                  CMS states that this report provides a helpful general description of the
                                  current utilization patterns. CMS notes the following limitations of the
                                  study: the cost per beneficiary includes only hospice payments and not
                                  other costs of care through Parts A, B, and D; the study does not
                                  reference the number of hospitalizations; the study does not discuss the
                                  number of hospice revocations or discharges that have occurred; and the
                                  study reflects only the length of stay and costs in 2005. See Appendix E
                                  for the full text of CMS’s comments.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   16
  Δ          A P P E N D I X ~ A




 Demographic Characteristics of Medicare Hospice Beneficiaries Who Resided in Nursing
 Facilities and Other Settings, 2005

                                           Beneficiaries in Nursing Facilities                Beneficiaries in Other Settings
 Variable
                                                                  (n=240,217)                                     (n=631,220)
 Age
 Less than 65 years                                                             4%                                             6%
 65-84 years                                                                   44%                                            58%
 85 years and older                                                            52%                                            36%

 Gender
 Female                                                                        68%                                            56%
 Male                                                                          32%                                            44%

 Region
 Northeast                                                                     19%                                            16%
 Midwest                                                                       30%                                            21%
 South                                                                         34%                                            40%
 West                                                                          16%                                            21%
 Unknown                                                                        0%                                             1%

 Race
 White                                                                         89%                                            88%
 Black                                                                          8%                                             8%
 Hispanic                                                                       1%                                             2%
 Unknown                                                                        2%                                             0%

 Medicare Eligibility
 Aged                                                                          96%                                            94%
 Disabled                                                                       3%                                             6%
 Other                                                                          0%                                             0%

 Location
 Urban                                                                         81%                                            79%
 Rural                                                                         16%                                            18%
 Unknown                                                                        3%                                             3%

Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   17

     Δ           A P P E N D I X                         ~ B



Diagnosis Categories for Hospice Beneficiaries, 2005
                                                                                            Beneficiaries in         Beneficiaries
                                                                                                   Nursing               in Other
Diagnosis Category
                                                                                                  Facilities             Settings
                                                                                               (n=240,217)            (n=631,220)
Ill-defined Conditions                                                                                   20%                   10%
Neoplasms (Cancer)                                                                                        20%                   41%
Circulatory Diseases                                                                                     20%                   20%
Mental Disorders                                                                                          15%                    6%
Alzheimer's Disease                                                                                       13%                    7%
Diseases of the Respiratory System                                                                         7%                    9%
Diseases of the Genitourinary System                                                                       3%                    3%
Diseases of the Digestive System                                                                           1%                    2%
Endocrine, Nutritional, and Metabolic Diseases and Immunity Disorders                                      1%                  0.4%
Injury and Poisoning                                                                                     0.2%                  0.2%
Infectious and Parasitic Diseases                                                                        0.2%                  0.2%
Diseases of the Blood and Blood-Forming Organs                                                           0.1%                  0.2%
Congenital Anomalies                                                                                     0.1%                  0.2%
Diseases of the Musculoskeletal System and Connective Tissue                                             0.1%                  0.1%
Diseases of the Skin and Subcutaneous Tissue                                                             0.0%                  0.0%

Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   18
  Δ          A P P E N D I X ~ C

Length of Stay in Hospice Care, 2005
                                       Beneficiaries in Nursing                  Beneficiaries in Other
                                         Facilities (n=240,217)                   Settings (n=631,220)
0-30 days                                                       49%                                    58%
31-60 days                                                      13%                                    13%
61-90 days                                                       8%                                     8%
91-180 days                                                     14%                                    11%
181-270 days                                                     7%                                     5%
271-364 days                                                     5%                                     3%
365 days and more                                                4%                                     3%
Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   19
  Δ          A P P E N D I X                            ~ D


Average Number of Days Spent in Hospice Care by Diagnosis Category, 2005
                                                                                             Beneficiaries in              Beneficiaries in
Diagnosis Category                                                                          Nursing Facilities              Other Settings
                                                                                                  (n=240,217)                  (n=631,220)
Alzheimer’s Disease                                                                                          102                        100
Mental Disorders                                                                                              92                         87
Ill-defined Conditions                                                                                        84                         75
Diseases of the Respiratory System                                                                            80                         73
Congenital Anomalies                                                                                          78                         75
Infectious and Parasitic Diseases                                                                             76                         52
Circulatory Diseases                                                                                          75                         71
Endocrine, Nutritional, and Metabolic Diseases and Immunity Disorders                                         73                         60
Diseases of the Musculoskeletal System and Connective Tissue                                                  71                         81
Diseases of the Blood and Blood-Forming Organs                                                                67                         46
Neoplasms (Cancer)                                                                                            64                         46
Diseases of the Skin and Subcutaneous Tissue                                                                  54                         53
Diseases of the Digestive System                                                                              51                         40
Injuries and Poisoning                                                                                        42                         23
Diseases of the Genitourinary System                                                                          34                         24

Source: Office of Inspector General analysis of Medicare claims and MDS data, 2007.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   20
  Δ          A P P E N D I X ~ E


              Agency Comments




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   21

     A P P E N D                 I X        ~       E       





OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   22

   Δ              A C K N O W L E D G M E N T S


                                  This report was prepared under the direction of Jodi Nudelman,
                                  Regional Inspector General for Evaluation and Inspections in the New
                                  York regional office, and Meridith Seife, Deputy Regional Inspector
                                  General.

                                  Nancy Harrison served as team leader for this study. Other principal
                                  Office of Evaluation and Inspections staff from the New York regional
                                  office who contributed to this report include Michelle McInnis; other
                                  regional and central office staff who contributed include Robert
                                  Gibbons, Scott Horning, Elizabeth Jones, Sandy Khoury, and Barbara
                                  Tedesco.




OEI-02-06-00220   MEDICARE HOSPICE CARE: A COMPARISON OF BENEFICIARIES IN NURSING FACILITIES AND BENEFICIARIES IN OTHER SETTINGS   23
